No: 20 —
October Term, 2020

IN THE
SUPREME COURT OF THE UNITED STATES

MERYL MCDONALD, Petitioner
—V.—
STATE OF FLORIDA, Respondent

ON PETITON FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA

REPLY BRIEF OF PETITIONER

Meryl McDonald DC#180399
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083
Petitioner pro se

RECEIVED
DEC 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
Page(s)
ii

TABLE OF CITATIONS
REPY/REASONS FOR GRANTING THE WRIT

1 -6

CONCLUSION

6

CERTIFICATE OF SERVICE

7

i

TABLE OF CITATIONS
Page(s)
Downs v. McNeil,
520 F.3d 1311 (11th cir. 2008)

5

Durocher v. Singletary,
623 So.2d 482 (Fla. 1993)

3

Giglio v. United States,
405 U.S. 150, 92 S.Ct. 763, 31 L.Ed. 2d 104 (1972)

1

Gordon v State,
75 So.3d 200 (Fla. 2011)

2, 3

Holland v. Florida,
560 U.S. 631,658 130 S.Ct. 2549,2568 177 L.Ed.2d 130 (2010)

5

Houston v. Lack,
487 U.S. 266, 108 S. Ct. 2379, 2382, 101 L. Ed. 2d 245(1988)

7

Martel v. Clair,
565 US 648, 132 S.Ct. 1276, 182 L Ed 135 (2012)

5

Martinez v. Court of Appeal of California, Fourth Appellate Dist.,
528 U.S. 152, 120 S.Ct. 684, 145 L.Ed.2d 597 (2000)

2, 5

Martinez v. Ryan,
566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012)

5

Zedner v. United States,
547 US 489, 126 S Ct 1976, 164 L Ed 2d 749 (2006)

4

REPLY
REASONS FOR GRANTING THE WRIT
Petitioner McDonald would first point out to this Honorable Court that the
Respondent in their Brief in Opposition claims that "McDonald once again
challenges Florida's rule mandating appointment of counsel to all death-sentenced
defendants" which is totally incorrect. (Brief in Opposition, page 6, footnote 4).

In 2017, McDonalds certiorari petition raised two separate and distinct
claims, neither of which were ones addressing the constitutionality of the Florida's
postconviction rule. The claims that were presented in 2017 were:

Whether the State violated due process when the lead police
detective and a FBI crime lab analyst knowingly falsified hair and
fiber analysis against petitioner, and the State's failure to disclose
this information to the court and defense prior to jury trial, and
whether the falsity of the pretrial and trial testimony extend to the
State for purpose of establishing a violation of Giglio v. United
States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed. 2d 104 (1972)? and,
Whether the State violated due process where the State record
shows prior to jury trial the State suppressed two crucial DNA lab
reports including the Supervisor and reviewing agent report, and
then submitted a false FBI report on the DNA testing?
1

The respondents brief in opposition also posits that all of McDonalds
attempts to file pro se motions and/or claims have been stricken by the Florida
Supreme Court as unauthorized is correct to the extent that Florida's high court
relies on the decision in Gordon v State, 75 So.3d 200 (Fla. 2011) which held that
"death sentenced appellants may not appear pro se in postconviction appeals." The
decision in Gordon was incorrectly decided as will be shown below.
The Florida Supreme Court, when rendering its decision in Gordon relied on
this Courts decision in Martinez v. Court of Appeal of California, Fourth Appellate
Dist., 528 U.S. 152, 120 S.Ct. 684, 145 L.Ed.2d 597 (2000) (holding that defendant
did not have federal constitutional right to represent himself on direct appeal from
his conviction).(emphasis added).
These two cases are clearly distinguishable and present two totally different
procedural postures. Martinez was a case on direct appeal, whereas Gordon was a
postconviction case. To extend the holding in Martinez, that there is no Sixth
Amendment right to self-representation on direct appeal, to cases in the
postconviction process then the question is raised that "If there is no constitutional
right to self-representation on direct appeal or in a postconviction proceeding, then
how can the State of Florida force this constitutional right on a death sentenced
defendant against his wishes?

2

Furthermore, and more importantly, the State of Florida took the position in
the proceedings below that the decision in Gordon should be revisited and in so
doing stated that "This Court should reconsider and overrule Gordon to the extent
it prohibits a competent capital defendant from representing himself in
postconviction proceedings"' (see Certiorari Appendix, Exhibit-"E", page 2).
The State further pointed out to Florida's high court that courts own decision
in Durocher v. Singletary, 623 So.2d 482 (Fla. 1993) which held that "if the right
to representation can be waived at trial, we see no reason why the statutory right to
collateral counsel cannot also be waived." (see Certiorari Appendix, Exhibit-"E",
page 3).
Then 20 years later the Florida Supreme Court decided Gordon, which in
turn prompted the amendment of Florida Rule of Criminal Procedure 3.851 to
include the provisions that capital defendants were no longer permitted to represent
themselves in postconviction appeals, and the only way to discharge
postconviction counsel was to also waive all postconviction appeals. See rule
3.851(b)(6) & (i).
The State has now changed its position; the State now relies on the decision
in Gordon as being good law and mentions nothing about that case being wrongly
postconviction counsel Jonathan Hackworth also submitted to the Florida Supreme Court that
not only should be Gordon be revisited and overruled but also that the rule was in fact
unconstitutional. ." (see Certiorari Appendix, Exhibit-"D")
3

decided or whether the case should be revisited and reconsidered as they did in the
proceedings in the Florida Supreme Court. This brings up the issue of Judicial
Estoppel. See Zedner v. United States, 547 US 489, 126 S Ct 1976, 164 L Ed 2d
749 (2006) (Where a party assumes a certain position in a legal proceeding and
succeeds in maintaining that position, the party may not thereafter, simply because
the party's interests have changed, assume a contrary position, especially if it be to
the prejudice of the party who has acquiesced in the position formerly taken. This
rule, known as judicial estoppel, generally prevents a party from prevailing in one
phase of a case on an argument and then relying on a contradictory argument to
prevail in another phase).
In this present certiorari petition, McDonald would be prejudiced by the
State's changing its position, this is especially so because McDonald and the State
both agreed in the Florida Supreme Court that the decision in Gordon should be
revisited and overruled. Now the State, by taking a contrary position because their
interest has changed, are now asserting that the reasons provided for in Gordon are
valid reasons for this Court to decline to exercise its certiorari jurisdiction. This
Honorable Court should decline this invitation.
The respondent in their brief in opposition also states that McDonald
erroneously asserts that Florida's rule forbidding pro se filings by death sentenced
defendants violates this Court's jurisprudence, (brief in opposition, page 9), and in
4

example, cites to McDonalds use of Martel v. Clair, 565 US 648, 132 S.Ct. 1276,
182 L Ed 135 (2012). However, a casual reading of the certiorari petition will
show that McDonalds use of Martel and other cases such as Holland v. Florida,
560 U.S. 631,658 130 S.Ct. 2549,2568 177 L.Ed.2d 130 (2010); Martinez v. Ryan,
566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012); and Downs v. McNeil, 520
F.3d 1311 (11th cir. 2008) was not for the purpose of showing this Court how the
rule forbidding pro se filings violates this Court's jurisprudence, but rather to show
examples of ineffective assistance of postconviction counsel and the effect they
have on death sentenced defendants.
In other words as stated in the certiorari petition, "It is not unreasonable to
perceive appointed counsel as being blameworthy or negligent at times. Numerous
precedent rulings have come from those very same scenarios of negligence,
misconduct, misadvice and ineffectiveness." (See certiorari petition, page 15)
Lastly, the respondent in their brief in opposition goes on a detailed history
of McDonald's previous filings since 1995, and attempts to equate those filings
with what is before this Court now. McDonald's previous case history is
immaterial to the issue presented to this Court because the issue before this Court
affects a whole class of people, and that is all death sentenced defendants in
Florida and McDonald's previous case history has no bearing whatsoever on the
issue or this Courts ultimate certiorari jurisdiction.
5

In closing, McDonald would respectfully asseverate to this Court that the
constitutionality of rule 3.851 is before this Court because a death sentenced
defendant in Florida is being forced to choose between pursuing his/her
postconviction appeals or waiving all postconviction proceedings which, does in
fact, raise the unsettled question of federal law which is;
"If there is no constitutional right to postconviction counsel then how can a
death sentenced defendant be forced to choose between appointed counsel or
waiving all postconviction appeals?
Therefore, this Honorable Court should grant certiorari review to this class
of death sentenced defendants and resolve the constitutionality of Florida's rule
3.851(b)(6) & (i) in the "Interests of Justice"

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully Submitted,

ivie,0„4,44

cDonald, DC# 180399
M
Uni Correctional Institution
P.O. Box 1000
Raiford, Florida 32083

6

